Audit of the Kabul to Kandahar Highway
Reconstruction Activities Financed by
USAID/Afghanistan’s Rehabilitation of Economic
Facilities and Services Program
Report No. 5-306-04-006-P

September 21, 2004




               Manila, Philippines
September 21, 2004


MEMORANDUM

TO:           USAID/Afghanistan Mission Director, Patrick C. Fine

FROM:         RIG/Manila, John M. Phee /s/

SUBJECT:      Audit of the Kabul to Kandahar Highway Reconstruction Activities
              Financed by USAID/Afghanistan’s Rehabilitation of Economic
              Facilities and Services Program (Report No. 5-306-04-006-P)

This memorandum is our final report on the subject audit. We reviewed your
comments to the draft report, made some revisions based on them, and included the
comments in their entirety as Appendix II.

This report includes two recommendations. Based on your comments, management
decisions have been reached on both recommendations. USAID/Afghanistan should
coordinate final actions on the two recommendations with USAID’s Office of
Management Planning and Innovation.

I wish to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.




                                                                                 1
(This page intentionally left blank)




                                       2
Table of
Contents   Summary of Results                                                          5

           Background                                                                  5

           Audit Objective                                                             7

           Audit Finding                                                               7

                           Did USAID/Afghanistan monitor its road reconstruction       7
                           activities to achieve planned outputs along the Kabul-
                           Kandahar highway under the Rehabilitation of Economic
                           Facilities and Services Program in accordance with USAID
                           policies and procedures?

                               Monitoring of Road Reconstruction                       8
                               Could be Improved

           Evaluation of Management Comments                                          12

           Appendix I – Scope and Methodology                                         15

           Appendix II – Management Comments                                          17




                                                                                       3
(This page intentionally left blank)




                                       4
Summary of   The Regional Inspector General/Manila conducted this audit to determine whether
Results      USAID/Afghanistan monitored its road reconstruction activities to achieve planned
             outputs along the Kabul to Kandahar highway under the Rehabilitation of Economic
             Facilities and Services program in accordance with USAID policies and procedures
             (page 7). The audit found that USAID/Afghanistan did not fully monitor its road
             reconstruction activities to achieve planned outputs in accordance with USAID
             policies and procedures, although it has taken some positive steps to improve
             monitoring (page 7).

             USAID/Afghanistan generally checked the timeliness of the reconstruction
             activities, but did not fully monitor the quality of the road reconstruction, in part,
             due to security restrictions that limited travel outside of Kabul (page 9). In
             addition, USAID/Afghanistan did not verify that the contractor’s performance
             conformed to the terms of the contract (page 9).

             As a result, quality problems affected eight percent of the road’s first layer of
             asphalt, and 30 kilometers of road, which had been paved last year, had to be
             removed and repaved (page 10). This replacement work may require adjustments
             to the remaining work schedule in order to meet the project’s September 30, 2004
             completion date (page 10).

             So that it can more fully monitor the progress and accomplishments of the
             reconstruction activities along the Kabul to Kandahar highway, this report
             recommended that USAID/Afghanistan (1) develop a monitoring plan to ensure
             quality, timeliness, and contractor performance, and (2) review contractor claims
             to ensure that USAID does not pay for the defective work that had to be redone
             (page 11).

             USAID/Afghanistan agreed with the two recommendations in this report, and
             management decisions have been reached on both recommendations (pages 12 and
             13). However, USAID/Afghanistan did not believe that the OIG’s draft report
             accurately or fairly reflected the accomplishments it achieved with limited staff
             (page 17). Where appropriate, we made changes to this report to address
             USAID/Afghanistan’s concerns and comments.


Background   The Rehabilitation of Economic Facilities and Services (REFS) program is the
             largest and most visible program being implemented by USAID/Afghanistan. Its
             purpose is to promote economic recovery and political stability by repairing
             infrastructure. In September 2002, the Louis Berger Group, Inc. (LBGI) was
             awarded a contract to implement the program, including road reconstruction and
             other infrastructure activities, with the contract base period ending December
             2005. Since the award date, contract modifications have increased estimated
             costs to $665 million.




                                                                                                 5
Reconstruction of the Kabul to Kandahar (Kabul-Kandahar) segment of
Afghanistan’s major east-west highway is the largest activity being implemented
under the REFS program. The east-west highway runs from Kabul to Herat and is
approximately 1,200 kilometers long.

In April 2003, the U.S. government assumed responsibility for 389 kilometers of
the Kabul-Kandahar highway starting 43 kilometers outside of Kabul and ending
50 kilometers before Kandahar (see map below).1 After assuming responsibility
for this segment, the U.S. government tasked USAID with reconstructing the 389-
kilometer highway. In response, LBGI developed and USAID approved a two-
phased strategy to accomplish this.

The Phase One goal included completing a nine-meter wide road (including two
one-meter wide shoulders) that had at least one layer of asphalt 10 centimeters
thick on the driving surface for 389 kilometers by December 2003. Phase Two
envisioned completing the road by widening it to 12 meters (including two 2.5-
meter wide shoulders), and adding three additional layers of asphalt for a total of
four layers 31 centimeters thick by September 2004.

                                      East-West Highway


        AFGHANISTAN



                                                   (43 Kms)
                                             Kabul Km 0 to Km 43
                                              Rehabilitation Only




          Herat                                                     Kabul
                              (50 Kms)
                          Km 432 to Km 482
                             (Japanese)




                                                                       (389 Kms)
                           Kandahar                                  Km 43 to Km 432
                                                                      Road Project




          A map of Afghanistan illustrating the east-west highway. USAID’s segment of
         the Kabul-Kandahar highway project starts 43 kilometers west of Kabul and runs
                             to within 50 kilometers of Kandahar.


1
    The first 43 kilometers were already paved, and the last 50 kilometers were to be completed
    with Japanese resources.


                                                                                             6
                However, LBGI’s implementation plan dated January 30, 2004, revised the road
                design to only three layers of asphalt totaling 25 centimeters. LBGI made this
                change because load-bearing tests indicated that six centimeters of asphalt could
                be eliminated without compromising road durability. The Kabul-Kandahar
                highway is estimated to cost $269 million. In addition, USAID has planned other
                road reconstruction activities with estimated costs of $257 million that include the
                segment of the east-west highway from Kandahar to Herat.


Audit           The Regional Inspector General/Manila included this audit in its fiscal year 2004
Objective       audit plan to answer the following question:

                •   Did USAID/Afghanistan monitor its road reconstruction activities to achieve
                    planned outputs along the Kabul-Kandahar highway under the Rehabilitation
                    of Economic Facilities and Services Program in accordance with USAID
                    policies and procedures?

                Appendix I contains a discussion of the audit's scope and methodology.


Audit Finding    USAID/Afghanistan did not fully monitor its road reconstruction activities to
                 achieve planned outputs in accordance with USAID policies and procedures,
                although it has taken some positive steps to improve monitoring. For example, in
                January 2004 the Mission revised an agreement with the U.S. Army Corps of
                Engineers (USACE) to increase staff from two to ten positions to assist on the
                REFS program—even though only three of the ten positions could be filled. In
                addition, in May 2004, the Mission awarded a contract to a nongovernment
                organization to provide services for inspections and other engineering advisory
                services. Nevertheless, the Mission’s monitoring could have been more complete.

                In addition to trying to increase USACE staff and awarding a contract to a
                nongovernment organization, the Mission monitored the Kabul-Kandahar
                highway reconstruction activities by:

                •   Establishing an Office of Infrastructure, Engineering, and Energy to manage
                    and monitor reconstruction activities under the REFS program.

                •   Reviewing contractor weekly progress reports.

                •   Tracking the REFS program’s budget and expenditures.

                •   Examining invoices submitted by the contractor.

                •   Regularly meeting with contractor staff.




                                                                                                  7
However, USAID/Afghanistan did not always monitor the timeliness of the
Kabul-Kandahar highway reconstruction activities, nor did it closely monitor the
quality of the roadwork.




         A photograph of a RIG/Manila auditor and U.S. Army personnel observing a
          subcontractor applying asphalt. This photograph was taken in June 2004
                     about 120 kilometers west of Kabul, Afghanistan.



Monitoring of Road Reconstruction
Could be Improved

 Summary: The Mission did not closely monitor the road reconstruction of the
 Kabul to Kandahar highway. Further, the Mission did not fully monitor the
 contractor’s performance and did not verify that an approved quality control
 and assurance program was in place as required by the contract. As a result,
 quality problems affected eight percent of the first layer of asphalt previously
 paved in Phase One, and 30 kilometers of asphalt was of poor quality, and was
 being removed and replaced with new asphalt at the time of our audit. This
 occurred because the Mission did not develop and implement a plan to monitor
 contractor performance and the contractor did not fully carry out an effective
 quality control and assurance program.

A project’s Cognizant Technical Officer (CTO) is ultimately responsible for
monitoring performance. According to USAID’s Automated Directives System
(ADS), CTOs are tasked with monitoring the quality and timeliness of outputs
produced by implementing partners such as a contractor. For example, the ADS
states that a CTO should ensure that a contractor is performing in accordance with
contract terms. In addition, the CTO designation letter, a letter issued by the


                                                                                    8
mission contracting officer to the CTO, includes other CTO responsibilities such
as documenting material deficiencies in a contractor’s performance, and
inspecting services or supplies to verify that standards are met.

The Mission tracked timeliness during Phase One of the Kabul-Kandahar
highway reconstruction by employing a CTO, two USACE engineers and a
Foreign Service National (FSN) employee; however, the Mission did not fully
monitor quality. While the Mission made limited site visits under tight security
control and used the contractor’s helicopter to make visual observations, the
Mission did not ensure the quality of the roadwork being done by the contractor
and its subcontractors.

In addition, after completing Phase One in December 2003, the Mission did not
closely monitor either the quality or the timeliness of the work done on the
highway, partly because the three USACE personnel and one FSN engineer were
mostly reassigned to other REFS projects. Furthermore, the Mission did not
verify that an approved quality control and assurance program was in place as
required by the contract. Also, prior to June 2004, neither the CTO nor his
representatives had inspected contractor quality control laboratories nor verified
that reconstruction work had met standards. As a result, 30 kilometers of asphalt
previously paved in Phase One was of poor quality, and was being removed and
replaced with new asphalt at the time of our audit.

This occurred because (1) the Mission did not develop and implement a plan to
monitor contractor performance, and (2) the contractor did not fully carry out an
effective quality control and assurance program. We believe a monitoring plan is
an important element of monitoring performance because it identifies roles,
responsibilities, and procedures for Mission personnel to ensure quality,
timeliness, and compliance with contract terms. This is especially important in a
program as large and complex as this one. While there were a number of
monitoring entities, such as the CTO, USACE personnel, the FSN engineer, etc.,
their roles were poorly defined and/or they had other duties in addition to
monitoring the road project. For example, during much of Phase One, the Deputy
Mission Director was the CTO for the entire REFS program and another large
program—in addition to carrying out his regular duties. Consequently, Mission
officials said the Mission did the best it could with the limited personnel it had to
complete the first layer of asphalt by December 31, 2003. Mission officials also
noted that the Mission continues to face problems in filling positions to monitor
the highway and other infrastructure projects. The Mission has tried to increase
staffing by improving working and living conditions and offering financial
incentives. However, issues such as the security situation continue to affect its
recruitment efforts.

In addition to the Mission not fully monitoring contractor performance, LBGI did
not fully carry out an effective quality control and assurance program as required
by its contract. According to its contract, LBGI, as the prime contractor, should



                                                                                   9
develop and submit to USAID for approval a comprehensive quality control and
assurance program. Although LBGI developed a 5-page document outlining its
quality control and assurance program, it was not comprehensive, nor was it
submitted to or approved by USAID.




            A photograph of a subcontractor removing defective asphalt. This
          photograph was taken in June 2004 about 125 kilometers west of Kabul,
                                      Afghanistan.

According to that document, quality control is a subcontractor responsibility, and
quality assurance is LBGI’s responsibility. However, in June 2004, we
accompanied USAID representatives to observe reconstruction activities and to
inspect subcontractors’ testing laboratories, and found that LBGI had not fully
assured quality. For example, during this visit, LBGI staff told the USAID
representatives that even though some sections of the highway were heavily
cracked, LBGI did not have the subcontractor remove asphalt around the cracked
areas. Instead, the subcontractor simply sealed the cracks and paved the next
layer of asphalt. In addition, Mission personnel noted deficiencies in LBGI’s
quality control and assurance program such as untrained personnel and laboratory
testing not being done in compliance with industry standards.

As a result of not having an effective quality control and assurance program,
quality problems affected eight percent of the first layer of asphalt paved during
Phase One, and 30 kilometers of asphalt had to be removed and repaved. In
addition, replacing defective work has caused delays that may require adjustments
to the remaining work schedule in order to meet the project’s September 30, 2004
completion date.

LBGI officials told us that in some instances the first layer of asphalt had been
paved in bad weather, which affected the quality of the asphalt that was put down.


                                                                                  10
According to LBGI, asphalt should not be paved over frozen ground or put down
during bad weather. However, we were told there could be other reasons why
asphalt may become defective. For example, during our site visit, nine trucks
loaded with hot asphalt were waiting to unload. The USAID inspection team told
us that because of the long wait, the temperature of the asphalt may not be hot
enough for proper compaction. The USAID inspection team stressed the
importance of having adequate quality control.

USAID/Afghanistan needs to more fully monitor contractor performance. In
addition, it needs to ensure that it does not pay for the asphalt that had to be
replaced. Therefore, we are making the following recommendations:

       Recommendation No. 1:              We recommend that
       USAID/Afghanistan develop a comprehensive monitoring plan
       to ensure quality, timeliness, and compliance with contract
       terms, including requiring the contractor to submit a
       comprehensive quality control and assurance program for
       USAID approval.

       Recommendation No. 2:               We recommend that
       USAID/Afghanistan perform an analysis of contractor claims
       to ensure that USAID does not pay for the defective roadwork.


Factors that May Affect USAID’s Goal of
Completing the Highway by September 30, 2004

USAID’s goal is to finish the Kabul-Kandahar highway by September 30, 2004.
However, defective work in Phase One for eight percent of the highway has
caused delays in reconstruction activities. According to contractor officials, to
make up for these delays, LBGI may institute night shifts for paving crews, and
reallocate the workload from less productive subcontractors to subcontractors that
are more productive. Phase Two entails adding new layers of asphalt; widening
shoulders; completing six bridges; and adding permanent dividers, borders, and
signs. According to LBGI, the outputs shown in Table 1 on the next page had
been achieved as of June 22, 2004.




                                                                               11
                                 Table 1: Planned and Completed Outputs for the
                                            Kabul-Kandahar Highway

                       Reconstruction Outputs as of June 22, 2004                  Planned       Completed
                    Paving a first layer of asphalt (Phase One)                    389 kms        359 kms2
                    Paving a second layer of asphalt (Phase Two)                   389 kms         310 kms
                    Paving a third layer of asphalt (Phase Two)                    389 kms         117 kms
                    Completing six bridges (Phase Two)                                 6               0

                At the time of this audit, none of the six bridges were open for traffic, though
                LBGI reported that five were essentially finished while one was still under
                construction. Nonetheless, contractor officials believed the Kabul-Kandahar
                highway would be substantially complete by September 30, 2004.

                Both Mission and LBGI officials remain concerned about the threat of terrorist
                attacks that could affect their ability to complete the highway on time. Such
                attacks have at times halted reconstruction, destroyed equipment, and resulted in
                worker deaths.



Evaluation of       USAID/Afghanistan provided written comments to our draft report that are
Management          included in their entirety as Appendix II. In its comments, USAID/Afghanistan
                    agreed with the report’s two recommendations. However, USAID/Afghanistan
Comments
                    stated it did not believe that our draft report accurately or fairly reflected the
                    accomplishments it achieved with limited staff. Additionally, the Mission
                    proposed changes to the contents of the draft report. Where we agreed with
                    USAID/Afghanistan’s comments, we made appropriate changes to the final
                    report.

                    For Recommendation No. 1, USAID/Afghanistan stated it is working to develop
                    a series of comprehensive monitoring plans not just for the road reconstruction
                    activity, but also for all the programs managed by the infrastructure office.
                    USAID/Afghanistan also stated that it expects to the have the plans in place by
                    the end of the calendar year. The Mission further stated that it had already
                    requested the contractor to submit a comprehensive quality control and assurance
                    program, and it expects to approve the final plan by the end of the calendar year.
                    Based on the Mission’s comments and actions, we consider that a management
                    decision has been reached on this recommendation.



                2
                  This number reflects the 30 kilometers of asphalt that had to be removed and has not yet been
                repaved.


                                                                                                            12
For recommendation No. 2, USAID/Afghanistan stated that it already performs
considerable analysis of contractor claims, but it is expanding that analysis to
pay particular attention to billing for roadwork to assure that USAID does not
pay for repair of defective segments of the road. For the final report, we revised
this recommendation; however, the revision did not significantly change the
recommendation or affect the Mission’s response. Therefore, based on the
Mission’s comments and actions, we consider that a management decision has
been reached on this recommendation.

USAID/Afghanistan stated that the draft report did not accurately or fairly reflect
the accomplishments it achieved with limited staff. For example, the Mission
believed that a reader could conclude from the report’s first paragraph that it did
nothing to monitor the Kabul-Kandahar highway reconstruction activities. The
Mission contends that it did monitor the activities although the monitoring may
not have been adequate or complied fully with USAID policies. Prior to
receiving the Mission’s comments, we had already decided to revise the draft
report to state that the Mission had not fully monitored the highway
reconstruction activities. We felt that this revised wording better reflected the
status of the Mission’s monitoring. In addition, for the final report, we added
more examples of the monitoring that the Mission did do. We believe these
changes provide a clearer, more balanced discussion of the Mission’s monitoring
of the Kabul-Kandahar highway reconstruction activities.

USAID/Afghanistan also felt that the draft report did not adequately reflect the
circumstances in which the highway reconstruction activities were undertaken or
the overarching U.S. government objectives which drove the Mission’s
reconstruction actions. For example, the Mission cited constraints imposed on it
by such things as the security situation, space limitations and the difficulties in
getting staff to serve in Afghanistan. The Mission also cited U.S. government
objectives, such as the U.S.’s promise to complete Phase One of the Kabul-
Kandahar highway reconstruction by December 2003, as affecting how it
directed its limited resources. Our draft audit report did discuss staffing
limitations and did mention security restrictions. The draft report might not have
discussed these constraints in the depth that the Mission would have liked, but
the OIG has addressed these constraints in detail in other reports such as the two
risk assessments the OIG has performed on USAID/Afghanistan activities.
Further, notwithstanding U.S. government objectives, the Mission could have
more fully monitored the Kabul-Kandahar highway reconstruction activities.

In its comments, USAID/Afghanistan pointed out what it believed was an
inaccuracy in our draft report and it commented on specific sections of the draft
report. Where we agreed with the Mission, we changed the final report
accordingly.

In summary, while USAID/Afghanistan acknowledged that its monitoring was
not all that one would hope for in normal circumstances, it stressed that the



                                                                                13
situation in Afghanistan was and remains far from normal. The Mission further
stated that it has achieved better results than anyone could reasonably have
expected given the constraints with which it operated and in large part continues
to operate today. USAID/Afghanistan’s complete comments are in Appendix II.




                                                                              14
                                                                                      Appendix I

Scope and     Scope
Methodology
              RIG/Manila conducted this audit in accordance with generally accepted
              government auditing standards. The audit was performed at USAID/Afghanistan
              in Kabul and at the offices of the Louis Berger Group, Inc., the primary
              contractor. Fieldwork was conducted from June 7-24, 2004. We conducted site
              visits to various points between Kabul and Kandahar to observe reconstruction
              activities. The audit covered the period from August 2003 through June 2004,
              during which time USAID had disbursed at least $197 million for the Kabul-
              Kandahar highway.

              This audit included an assessment of management controls used by the Mission to
              monitor reconstruction activities. Specifically, we assessed controls related to
              whether the Mission (1) conducted site visits to evaluate progress and monitor
              quality; (2) documented significant actions, meetings, or conversations with the
              contractor; and (3) monitored the funds disbursed. The audit also reviewed the
              Mission’s evaluation of its reconstruction activities in its fiscal year 2003 Federal
              Managers’ Financial Integrity Act submission.

              Methodology

              To answer the audit objective, we held discussions with officials from the
              Mission, the primary contractor, and the U.S. Army Corps of Engineers. We also
              reviewed:

              •   Applicable laws, regulations, and USAID policy and guidance related to the
                  objective.

              •   Documentation such as, but not limited to, contracts, trip reports, contractor
                  project reports, and financial reports.

              •   Financial audit reports on costs billed to USAID.

              We did not set a materiality threshold for this audit as the nature of the audit did
              not lend itself to the establishment of such a threshold. However, we designed
              our audit to address potential concerns such as inadequate oversight over
              reconstruction activities, and lack of awareness of existing problems along the
              Kabul-Kandahar highway.




                                                                                                   15
(This page intentionally left blank)




                                       16
                                                                                    Appendix II


Management
Comments

                             United States Agency for International Development

                                  Kabul, Afghanistan

                                                             September 5, 2004


MEMORANDUM

TO:             George Jiron, RIG/A, Manila

THRU:           Amanda Levenson, Controller /s/

FROM:           Patrick C. Fine, Mission Director /s/

SUBJECT:        Management Comments to RIG/Manila’s Final Draft on the Third Performance
                Audit of the Road Project Financed by USAID/Afghanistan’s Rehabilitation of
                Economic Facilities and Services (REFS) Program
                RIG/M Memorandum 04-00X

We appreciate the opportunity to respond to the subject final draft report. The Mission concurs
with the recommendations in the report. In fact the Mission had been working to develop a
comprehensive monitoring plan and analyzing contractor claims to ensure the USAID does not
pay for defective road work before the auditor’s visit. However the Mission believes the
auditor’s principle finding “that USAID/Afghanistan did not monitor its road reconstruction
activities…”, and the general tone of the report does not accurately or fairly reflect the
Mission’s substantial accomplishments achieved with extremely limited staff.

Reading the first paragraph of the report, one might easily conclude that USAID/Afghanistan
did nothing to monitor road reconstruction activities. That is not the case. Monitoring may not
have been adequate, or complied fully with AID polices and procedures, but monitoring did
take place. The Mission also feels the report does not adequately reflect the circumstances in
which the road reconstruction activities were undertaken, or the overarching US Government
objectives which drove the Mission’s actions in implementation of the road reconstruction.

The background section of the report accurately reports that the original contract signed in
September 2002 planned for completion of the Kabul – Kandahar segment of the east-west
highway by September 2004. However it does not reflect that at that time no one expected to
complete an initial layer of asphalt by December 2003. In January of 2003, Afghan President



                                                                                             17
Karzai visited President Bush in the US. During that visit President Karzai stressed the
importance of rapid, visible, reconstruction action for the stability of Afghanistan, and made
clear that the east-west highway was his highest reconstruction priority. President Bush
promised that working with other countries the U.S. would complete a first phase of the K – K
highway by December that year. By April it became apparent that the U.S. would have to
reconstruct the large majority of the road. It was understood at the outset that reconstruction
of 389 kilometers of road by December was an extremely ambitious undertaking even in the
best of conditions. And the conditions in Afghanistan, as summarized below, were not the
best.

Weather, security, and isolation all presented serious constraints to completion of the effort.
The first phase actually had to be completed by the beginning of December because after that
it would be impossible to lay asphalt. Twenty two people were injured, and fifteen killed in
hostile actions on the road between November 2002 and June 2004. The logistics of moving
heavy road construction equipment and paving material to rural Afghanistan were daunting. In
addition due to severe space constraints in the Embassy and difficulties in getting staff to serve
in Afghanistan, the USAID Mission had only 4 USDH staff in Kabul during the phase one
period.

Given the political imperative associated with achieving the overall objective, completing phase
one by December, it was understood by all working on implementation that every kilometer of
asphalt laid may not be perfect. In fact, it was understood that it was likely asphalt would have
to be laid in poor weather conditions, which could adverselyl affect quality. The first priority of
the President, the NSC and the Ambassador was to complete the first phase on time. Given
the limited staff available, and the difficulty of getting out of Kabul to inspect the road, that
priority was the principal emphasis of monitoring during phase one.

Preparation of the base and application of the first layer of asphalt on the full length of the 389
km US Section of the highway in nine months was an extraordinary engineering and
construction accomplishment that contributed greatly to US foreign policy and national security
objectives. This has been recognized by independent engineering organization’s in the U.S.
in awarding the following Kabul-Kandahar Highway Project-related recognitions:

·   2004 Engineering Excellence Award Certificate 2nd Place awarded by the American
    Council of Engineering Companies (registers all the Engineering firms in the US); and,

·   2004 Outstanding Civil Engineering Award and Improving Quality of Life Award of the
    American Society of Civil Engineers;

The Mission believes that the second paragraph on page 5 is inaccurate. An Afghan engineer
employed by USAID identified the 30 kilometers of poor quality asphalt referenced. The CTO
and many others in the Mission were aware of the section being repaved prior to the auditors
work and visit. The work is an example of the success of USAID’s monitoring efforts and
LBG’s quality assurance program rather than an indication of a deficiency.




                                                                                                 18
Even prior to completion of phase one of the activity, the US Government decided to greatly
accelerate the reconstruction efforts in Afghanistan to include over 400 schools, nearly 380
clinics, additional primary highways, secondary roads, power, irrigation and potable water
projects. While engineering and management staff available to work on infrastructure activities
was increased, the increase was unable to keep pace with the huge surge in demand for
reconstruction across a broad front. The continuing security threat only made the situation
more problematic.

With successful completion of the promised first phase of the road the priorities of the US
Government in Afghanistan shifted to the acceleration of other activities. As one would expect
the Mission’s limited resources were largely directed to the priorities laid out by the NSC and
the President’s Special Envoy to Afghanistan. When facing serious resource constraints the
prudent manager devotes resources according to the organization’s priorities. However,
Mission staff continued to monitor the road activity, while bringing on additional resources in
the form of US PSC engineers, additional local engineers and expanded US Army Corps of
Engineer (USACE) staff. That buildup process has continued since the auditor’s visit in June
and the Infrastructure team now consists of 11 professional staff working within the AID offices,
and additional engineers working outside the AID office plus an A&E oversight firm recently
contracted to assist in oversight of infrastructure programs.

In sum, while the Mission acknowledges that monitoring of the road reconstruction activity was
not all that one would hope for in normal circumstances, the situation in Afghanistan was and
remains far from normal. The Mission has achieved better results than anyone could
reasonably have expected given the constraints within which it operated, and in large part
continues to operate today. The Mission and its reconstruction efforts have strongly supported
one of the nation’s highest priority foreign policy and national security goals.

As mentioned at the outset, the Mission concurs with the two recommendations of the draft
report. Recently arrived staff are already working to:

      1. Develop a comprehensive monitoring plan to ensure quality, timeliness, and
         compliance with contract terms, including requiring the contractor to submit a
         comprehensive quality control and assurance program for USAID approval.

           The Mission is working with USACE and IRD (the A&E support contractor) to
          develop a series of comprehensive monitoring plans not just for LBGI and the road
          activity, but for all programs managed by the infrastructure office. We expect to
          have the plan in place by the end of the calendar year. The Mission has already
          requested LBGI to submit a comprehensive quality control and assurance program,
          and we have seen an initial draft. We expect the final plan to be submitted and
          approved by the end of the calendar year.

          Based on these actions we request resolution of this recommendation.

      2. Perform a continuing analysis of contractor claims to ensure that USAID does
         not pay for the defective road work.



                                                                                              19
          The Mission already performs considerable analysis of LBGI claims. We are
          expanding that analysis to pay particular attention to billing for road work to assure
          that AID does not pay for repair of defective segments of the road.

          Based on this action we request resolution of this recommendation.

The Mission also has the following comments on specific sections of the report.

1.      Last paragraph of page two: The 49 kilometers described as being repaired were in
fact totally reconstructed from the sub grade up. This is an important distinction.

2.     Last paragraph of page six : All cracks on the road were initially sealed with asphalt
in order to prevent the intrusion of water. All areas of pavement exhibiting failure were
removed, the improved sub grade was corrected and later overlain with the first course of ATB.
On those sections of pavement where cracks were solely of a transverse nature the repairs
were made permanent by covering the sealed cracks with Geo Tech fabrics and the second
course of ATB. These represent appropriate engineering solutions considering the available
resources (man, machine and material) in Afghanistan at that time and under the time
constraints imposed.

LBGI reports that its Materials Engineer has been to each of the Sub Contractors laboratories
on a number of occasions assisting in the calibration of their equipment, viewing their test
procedures and taking samples back to its own labs to run independent tests anytime the Sub
Contractors tests were questionable.

4.     Page seven, paragraph two: The report states that during the visit, nine asphalt trucks
were standing by waiting to unload. It states further that the auditors were told this was bad
practice because the material could cool, preventing proper compaction. LBGI reports that air
temperatures during the months of June and July exceed 33o Celsius (92o F). At this
temperature asphalt can remain in the trucks for upwards of 3 – 4 hours without adverse
effects on compaction. Nevertheless, all temperatures were measured on lay down and
conformed to specifications. This is a normal part of the QA/QC procedure for the project.




Clearances: CMoseley, CTO (draft)
            BPrimm, Deputy Mission Director (draft)




                                                                                                   20
